Department of Homeland Security
   Ofﬁce of Inspector General

            Transportation Security Administration's 

            Acquisition of Support Services Contracts 





OIG-10-72                                            March 2010
                                                                                         .
                                                                      ,Office"ofInspectorGeneral
                                                                                       ,


                                                                      u.s. Department of Homeland Security'
                                                                      Washington, DC 20528




                                                                       Homeland
                                                                       Security
                                           MAR 2 5 2010

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the Transportation Security Administration's management and
oversight in its acquisition of support services contracts. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                          ~~~~
                                           Richard L. Skinner
                                           Inspector General




           Transportation Security Administration's Acquisition of Support Services Contracts


                                                 Page 2

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................4
 


     Contractors are Performing Inherently Governmental Functions..................................4 

     Contracting Officers Are Not Following TSA Acquisition Guidance...........................5 

     Contracts Contain Vague Statements of Work ..............................................................6 

     TSA Does Not Have a Sufficient Number of Trained COTR Staff ..............................8 

     Conclusion .....................................................................................................................9
 

     Actions Taken by TSA...................................................................................................9 


Recommendations..............................................................................................................10
 


Management Comments and OIG Analysis ......................................................................10 




Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................13 

     Appendix B: Management Comments to the Draft Report .......................................15 

     Appendix C: Inherently Governmental and Approaching Inherently

                 Governmental Functions......................................................................22                             

     Appendix D: Major Contributors to This Report ......................................................24 

     Appendix E: Report Distribution ..............................................................................25 


Abbreviations
     COTR                  Contracting Officer’s Technical Representative 

     FAR                   Federal Acquisition Regulation 

     OIG                   Office of Inspector General 

     OMB                   Office of Management and Budget 

     OST                   Office of Security Technology 

     TSA                   Transportation Security Administration           

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     Since its creation, the Transportation Security Administration has
                     relied on support services contractors to help accomplish its
                     mission. We reviewed support services acquisitions within the
                     Transportation Security Administration’s Office of Security
                     Technology, which focuses on security technologies related to air,
                     surface, and maritime transportation. The objective of our audit
                     was to determine whether the Transportation Security
                     Administration provides adequate management and oversight in
                     the acquisition of support services for transportation security
                     programs. In FY 2009, the Office of Security Technology had 29
                     support services contracts totaling $662 million. We reviewed all
                     contract administration documentation for the 13 highest-value
                     contracts, which represented 92% ($609 million) of the total value
                     of all FY 2009 support services contracts.

                     The Transportation Security Administration did not provide
                     adequate management and oversight of acquisitions for support
                     services for transportation security programs. Contractors were
                     performing inherently governmental functions or roles that closely
                     support the performance of inherently governmental functions,
                     acquisition staff did not follow acquisition guidance, and support
                     services contracts contained vague statements of work. This
                     occurred because the agency did not have an adequate number of
                     properly trained core acquisition staff to administer contracts and
                     oversee support services contractors’ performance. As a result, the
                     Transportation Security Administration did not have reasonable
                     assurance that contractors were performing as required, that it
                     contracted for the services it needed, that it received the services it
                     paid for, or that taxpayers were receiving the best value.

                     We made three recommendations to the Transportation Security
                     Administration to improve management and oversight of
                     acquisitions for support services for transportation security
                     programs. The agency agreed with the recommendations and is
                     implementing changes in its oversight of support services
                     acquisitions to improve accountability and to correct weaknesses
                     identified during our audit.


        Transportation Security Administration’s Acquisition of Support Services Contracts

                                             Page 1
Background
                            Since its creation, the Transportation Security Administration
                            (TSA) has relied on support services contractors to help
                            accomplish its mission. TSA’s decision to contract for services
                            such as acquisition support, invoice review, strategic planning, and
                            administrative support was largely driven by the need to stand up
                            programs and operations quickly after the events of September 11,
                            2001.

                            We performed this audit because our earlier audit of TSA’s
                            Logistics Center1 identified potential weaknesses in TSA’s support
                            services contracting process that were outside the scope of that
                            audit. During this audit, we reviewed the support services
                            acquisitions within TSA’s Office of Security Technology (OST).
                            OST focuses on acquiring security technologies related to air,
                            surface, and maritime transportation. A large portion of OST’s
                            work addresses baggage screening, passenger screening, and
                            surface protection tools. The objective of this follow-on audit was
                            to determine whether TSA provides adequate management and
                            oversight in the acquisition of support services for transportation
                            security programs.

                            TSA’s contracting officers and contracting officer’s technical
                            representatives (COTRs) provide contract oversight and
                            monitoring. Contracting officers and COTRs are federal
                            employees who represent the government’s interests in negotiating
                            and administering contracts. TSA assigns a contracting officer and
                            a COTR to handle each support services contract from contract
                            award to closeout. The contracting officer is responsible for
                            providing contract administration and oversight. Owing to the
                            technical nature of TSA contracts, contracting officers delegate
                            many of their contract administration and oversight responsibilities
                            to COTRs, who serve as technical experts in the contract areas to
                            which they are assigned. Each COTR works with the contracting
                            officer and the program office to oversee and monitor contractor
                            performance and deliverables.

                            In FY 2009, OST had 29 support services contracts in place with a
                            total value of $662 million. We reviewed the 13 highest-value
                            contracts, which represented 92% ($609 million) of the total value
                            of all FY 2009 support services contracts. To determine the level

1
    Management of the TSA’s Logistics Center, OIG-10-14, November 2009.



               Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                     Page 2 

             of contract management and oversight, we reviewed all contract
             administration documentation for these 13 contracts, including
             contract files; contract statements of work; contract modifications;
             COTR administration files; and COTR nomination, training, and
             departmental approval files. We also reviewed contract invoices to
             identify who was administering invoice payments.

             Federal acquisition guidance highlights the risks inherent in service
             contracting, particularly for support services. According to the
             Office of Management and Budget (OMB), the closer contractor
             services come to supporting inherently governmental functions, the
             greater the risk of their influencing the government’s control over
             and accountability for decisions. Inherently governmental
             functions require discretion in applying government authority or
             value judgments in making decisions for the government. A
             Government Accountability Office panel stated that increasing
             reliance on contractors to perform services for core government
             activities challenges the capacity of federal officials to supervise
             and evaluate the performance of these activities.

             According to the Federal Acquisition Regulations (FAR), Subpart
             37 and Subpart 7, and the Office of Federal Procurement Policy
             Letter 93-1, services that tend to affect government decision-
             making or program management require a greater level of scrutiny
             and an enhanced degree of management oversight to prevent
             abuse. Such scrutiny includes assigning a sufficient number of
             qualified government acquisition staff to provide oversight and
             ensure that agency officials retain control over and remain
             accountable for policy decisions, based in part on a contractor’s
             performance and work products.

             Prior to June 2008, TSA was not subject to the requirements of the
             FAR. However, regulatory acquisition criteria in the Acquisition
             Management system used by TSA are consistent with the FAR,
             except for the solicitation process, which we did not include in this
             audit. In addition, since June 22, 2008, TSA is now required to
             comply with all FAR requirements. TSA has also established
             internal policy and guidance that augments the FAR and provides
             specific guidelines for contract administration, oversight, and
             management.




Transportation Security Administration’s Acquisition of Support Services Contracts 


                                      Page 3 

Results of Audit
           TSA did not provide adequate management and oversight of acquisitions
           for support services for transportation security programs within the OST.
           Contractors were performing inherently governmental functions or roles
           that closely support the performance of inherently governmental functions,
           acquisition staff did not follow acquisition guidance, and support services
           contracts contained vague statements of work. This occurred because
           TSA did not have an adequate number of properly trained core acquisition
           staff dedicated to perform contract administration and oversee support
           services contractors’ performance. As a result, TSA did not have
           reasonable assurance that contractors were performing as required, that it
           contracted for the services it needed, that it received the services it paid
           for, or that taxpayers received the best value for their tax dollars. TSA is
           developing and implementing changes in its management and oversight of
           support services acquisitions to improve accountability and to correct
           weaknesses identified during our audit.

                    Contractors Are Performing Inherently Governmental
                    Functions

                    Contractors performed inherently governmental functions or roles
                    that directly support the performance of inherently governmental
                    functions. (Appendix C contains examples of inherently
                    governmental functions and roles that support the performance of
                    inherently governmental functions.) Although the FAR establishes
                    contract administration as an inherently governmental function,
                    TSA’s support services contractors performed contract
                    administration in 3 of the 13 contracts we reviewed. Specifically,
                    these three contractors reviewed invoices to determine whether
                    they were reasonable, correctly charged, and allowable, and then
                    recommended the invoices for approval and payment. These three
                    contracts represented 40% ($265 million) of the total support
                    services contracts for FY 2009.

                    In addition, one of these three contractors performed COTR
                    support for its own contract, along with reviewing its own
                    invoices. When we brought this to the attention of TSA
                    management, they took immediate action to correct the problem.

                    While program officials generally acknowledged that their
                    professional and management support services contracts closely
                    supported the performance of inherently governmental functions,
                    they felt that contracts for such services were common practice


       Transportation Security Administration’s Acquisition of Support Services Contracts

                                            Page 4
             within the government. However, the FAR requires that agency
             officials retain control over and remain accountable for contract
             administration, approval, and payment of invoices. Until TSA
             provides greater scrutiny and enhances management oversight of
             support services contracts, it will continue to risk transferring
             government responsibility to contractors.

             Contracting Officers Are Not Following TSA Acquisition
             Guidance

             Contracting officers and COTRs did not follow TSA’s internal
             acquisition guidance for contract administration, oversight, and
             monitoring to ensure that contractors were completing the
             contracted work. For example, for all 13 contracts, the contracting
             officers’ contract files were missing COTR delegation forms,
             modifications notifying the contractor of changes in the contracting
             officer, documentation of suspension and debarment reviews, base
             contracts, and performance and monitoring reports. COTRs’
             administrative files were missing invoices, COTR delegation
             forms, COTR training forms, contract modifications, and other
             oversight documentation. Although TSA’s guidance requires that
             COTR nomination forms and departmental approval forms be
             completed before COTRs assume their duties, our review of the
             contracts showed that 6 (46%) of the 13 contracts did not include
             the nomination forms and 2 (15%) of the 13 contracts did not
             include the departmental approval forms before the COTRs began
             performing COTR duties. Without adequate documentation, there
             is no assurance that contractors are meeting contract provisions or
             that TSA is making appropriate payments for services provided.

             Although TSA’s internal acquisition guidance requires quality
             assurance plans or surveillance plans with specific measures for
             assessing contractors’ performance, none of the contract or COTR
             files we reviewed contained specific measures for assessing
             contractors’ performance, plans outlining the specific contract
             requirements, or measurable outcomes of the support services
             provided. While TSA documents monthly meetings with
             contractors to discuss performance, TSA officials did not provide
             evidence that they independently validated the contractors’
             progress reports. As a result, TSA could not ensure that
             contractors were complying with contract performance
             requirements.




Transportation Security Administration’s Acquisition of Support Services Contracts 


                                      Page 5 

             COTRs submitted invoices to the contracting officers for payment
             without sufficient detail to support payment. We reviewed all of
             the contractors’ August 2009 invoices, which totaled
             approximately $6 million for the 13 contracts reviewed. Each
             invoice listed the contract employee’s name and the hours of work
             performed. However, the invoices did not include a detailed
             description of the work performed or the project completed.
             Owing to the lack of specificity in the contractors’ invoices, we
             could not determine whether the correct contract was charged or
             whether the work performed was required under the contract.
             Since COTRs cannot provide adequate oversight and monitoring
             without reviewing detailed invoices that identify the specific work
             completed, TSA does not have reasonable assurance that
             contractors are performing as required and that full payment is
             justified on the invoices received.

             Contracts Contain Vague Statements of Work

             TSA did not always clearly define the requirements in the
             statements of work for support services contracts. Nine of the 13
             contracts we reviewed contained vague statements of work that did
             not outline the specific requirements or include key deliverables
             specifying the activities the contractor needed to complete. These
             nine contracts represented 79% ($523 million) of the total support
             services contracts for FY 2009. Although the FAR requires that
             contracts contain clearly defined statements of work, TSA program
             officials acknowledged that the statements of work did not always
             accurately reflect program needs or the work the contractors
             actually performed.

             The vague statements of work also allowed acquisition personnel
             to add unrelated tasks to contracts. For example, the statement of
             work for a $10 million services contract for strategic planning was
             so vague that the contracting officer was able to use it to develop a
             SharePoint (data repository) system for the Passenger Screening
             Program without completing a separate contract modification. The
             development of a SharePoint system is unrelated to strategic
             planning and is not a support service. TSA should have contracted
             for the system through its Office of Information Technology under
             a separate contract.

             Statements of work should be clearly written to describe the
             services needed and detailed enough to ensure that personnel use a
             contract as intended. Without clear statements of work, TSA


Transportation Security Administration’s Acquisition of Support Services Contracts

                                     Page 6
             cannot be sure that contractors are providing the services needed,
             nor can it hold contractors accountable for the services they
             provide.

             TSA often needed to create contract modifications to clarify the
             work it was asking contractors to perform. Table 1 shows that for
             the 13 contracts we reviewed, TSA executed 97 contract
             modifications to define more clearly the work the contractors were
             performing.

               Table 1: Contract Modifications Made Because TSA Did Not
                Clearly Define the Requirements in the Statement of Work
      Contract          1    2    3    4     5    6    7    8   9    10    11   12     13   Total
      Number
     Number of          8    8   11    9     11   17   0    5   2    6     17    2     1     97
      Contract
    Modifications

             Contract modifications require extra work and sometimes add costs
             to contracts. TSA could have avoided extra costs and work for its
             already overburdened staff by clearly defining contract
             requirements before awarding contracts.

             Further, contracts were missing key delivery tables that clearly
             identify the task assignments and delivery dates contractors must
             meet. Chart 1 shows that 69% (9 of the 13) contracts we reviewed
             were missing key delivery tables with specific requirements and
             due dates. Specific contract requirements and task assignments are
             critical to gauging contractor performance and ensuring that
             contractors are performing contracted services timely.


                  Chart 1: Contract Key Deliverables


              31%
                                                       Contracts with no
                                                       key deliverables
                                                       Contracts with
                                                       key deliverables
                                       69%




Transportation Security Administration’s Acquisition of Support Services Contracts 


                                      Page 7 

             TSA Does Not Have a Sufficient Number of Trained COTR
             Staff

             TSA did not provide sufficient management and oversight for its
             support services contracts because it did not have an adequate
             number of dedicated and properly trained COTRs. As a result,
             TSA has relied on contractors to perform work that is inherently
             governmental or directly supports the performance of inherently
             governmental functions.

             Insufficient COTR Staff

             TSA does not have a core group of acquisition staff to serve as
             COTRs for support services contracts. TSA assigns COTR
             responsibilities to staff who are technical experts in the area
             covered by the contract. However, COTRs remain focused on the
             program offices in which they normally work and are not available
             to monitor contractor performance, owing in part to their workload
             demands. Because of this, TSA relies on contractors to perform
             many COTR functions, including invoice review and maintenance
             of the COTR administrative files. According to federal guidelines,
             some of the COTR duties include inherently governmental
             functions that contractors should not perform.

             TSA should ensure that a core group of technical experts is
             dedicated exclusively to COTR functions. By maintaining a core
             group of acquisition experts, TSA would be better able to provide
             the contract administration, management, and oversight required
             by OMB and FAR. A core group would also reduce the continual
             need to train new staff to perform COTR functions.

             Insufficient Training

             Although COTR training is essential to develop skilled staff for
             contract administration, COTRs on 85% (11 of the 13) of the
             contracts reviewed had not completed the required training. To
             maintain their certifications, TSA requires that COTRs receive 40
             hours of COTR training initially, 40 hours of refresher training per
             2-year cycle (including a minimum of 12 hours in each year), and
             annual ethics training. TSA should review the COTR training
             records to ensure that all COTRs complete the required training.
             TSA should also tailor COTR refresher training to develop skills in
             contract administration, management, and oversight.



Transportation Security Administration’s Acquisition of Support Services Contracts

                                     Page 8
             Conclusion

             To improve its ability to manage the risk associated with
             contracting for support services and help ensure government
             control and accountability, TSA should define contract
             requirements more clearly, assess the ability of the government
             workforce to provide sufficient oversight when using support
             services, and review contracts for services that are inherently
             governmental or closely related to inherently governmental
             functions. TSA must create surveillance plans to ensure
             compliance with contract performance requirements and internal
             control standards. Without stronger oversight, TSA will not have
             reasonable assurance that contractors are performing as required
             and that full payment is justified under the contracts.

             All contracts need to have COTRs assigned who meet the
             nomination, training, and departmental requirements to perform
             their role. TSA should review the COTR records annually to
             ensure that all COTRs have completed the required nominations,
             training, and departmental approval.

             Actions Taken by TSA

             TSA is developing and implementing changes in its management
             and oversight of support services acquisitions to improve
             accountability and to correct weaknesses identified during our
             audit. TSA has initiated the following actions:

                  �	 The Office of Acquisitions has amended its reviews of
                     contract solicitations to include the review of contract
                     statements of work to ensure that requirements are clearly
                     defined.
                  �	 The TSA Head of Contracting Activity will review
                     professional services contracts greater than $1 million
                     annually to ensure that any proposed contract award or
                     option does not include inherently or nearly inherently
                     governmental requirements or personal services, or impact
                     core functions that must be performed by federal
                     employees.
                  �	 The Office of Acquisitions has finalized internal policy on
                     organizational conflicts of interest and procurement
                     integrity for contracting officers to prevent contractors
                     from overseeing their own contracts.



Transportation Security Administration’s Acquisition of Support Services Contracts

                                     Page 9
                  �	 The TSA COTR program has completed a compliance
                     review of the contracts with deficiencies identified in this
                     report to provide assistance and guidance in the assembly
                     of COTR and contracting files.
                  �	 TSA is using new database functionality to provide instant
                     access and reporting on COTR assignment, skills, and
                     certification information for all TSA contracts. This allows
                     TSA to identify all COTRs not in compliance with TSA
                     requirements and contracts without properly delegated
                     COTRs.
                  �	 COTR nominations, training, and certifications are being
                     updated to ensure that they are in compliance with TSA
                     requirements.


    Recommendations
             We recommend that the Assistant Secretary for TSA:

             Recommendation #1: Include a contract review of inherently
             governmental functions as part of contract administration.

             Recommendation #2: Establish evaluation factors and a review
             process for requirements identified in the statements of work.

             Recommendation #3: Assign dedicated, trained, and certified
             COTRs to manage and oversee the contract administration
             function.

    Management Comments and OIG Analysis

    TSA Comments to Recommendation #1:

    Concur: TSA recognizes the importance of maintaining control of
    inherently governmental functions. TSA Head of Contracting Activity
    (HCA) reviews professional services contracts greater than $1 million
    annually to make sure proposed contract awards or options do not include
    inherently, nearly inherently governmental requirements, personal
    services, or affect core functions that must be performed by Federal
    employees. In addition, TSA stated that it would develop policy to require
    personnel to document analyses that show contracted services are not
    inherently governmental.




Transportation Security Administration’s Acquisition of Support Services Contracts

                                     Page 10
    OIG Analysis:

    The completed actions taken along with TSA’s proposed actions satisfy
    the intent of this recommendation. This recommendation is resolved, but
    will remain open until the TSA provides us with its new policy.

    Management Comments to Recommendation #2:

    Concur: Office of Acquisition currently has a policy that requires
    personnel to review all solicitations at least one level above the
    Contracting Officer. The review includes the SOW to ensure that the
    statements clearly define the contract requirements. Additionally, OST
    plans to implement a procurement front-end process that includes the
    review and approval of procurement documentation, including SOWs.
    The purpose is to develop a process flow on the OST iShare site to ensure
    consistency and completeness of procurement packages through out all
    OST programs. The Electronic Baggage Screening Program includes
    developing and testing a pilot of the initial workflow within the next six
    months. TSA plans to implement this workflow process OST-wide once
    the pilot program is evaluated and refined. This will add another
    comprehensive review at the Program Manager level prior to the
    submission of requirements to Office of Acquisition.

    OIG Analysis:

    The completed actions and TSAs proposed actions satisfy the intent of this
    recommendation. This recommendation is resolved, but will remain open
    until the workflow process is completed.

    Management Comments to Recommendation #3:

    Concur: The Office of Acquisition initiated efforts to enhance its COTR
    program, including training plans. TSA also developed a new database
    that will show COTR assignments, certifications, and skills information
    and holds quarterly COTR Forums to discuss issues of interest, as well as
    provide an opportunity to COTRs to share ideas and best practices. In
    addition, Office of Acquisition plans to offer enhanced COTR training to
    develop skills in contract administration, management, and oversight. The
    OST Acquisition Branch implemented an eCOTR file that will provide
    access to all documentation to assist COTRs in managing contracts and
    communicating with stakeholders. Within the past year, OST hired four
    additional personnel to work with the OST Acquisition Branch. One of
    the goals of this group is to provide centralized oversight support for OST,
    as well as work with TSA Office of Acquisition. OST will add a link to


Transportation Security Administration’s Acquisition of Support Services Contracts 


                                     Page 11 

        the e-COTR files for the COTRs to have access to the OA COTR support
        iShare site. This OA site provides up-to-date information to COTRs on
        required training, which will assist TSA in developing current individual
        training plans for each COTR.

        OIG Analysis:

        The actions taken satisfy the intent of this recommendation. This
        recommendation is resolved but will remain open until TSA completes all
        its proposed actions.

        Management Technical Comments:

        We reviewed the Technical Comments provided by TSA and made some
        changes based on those recommendations. In its comments, TSA did not
        agree with our conclusion that contractors were performing inherently
        governmental or nearly inherently governmental work but did agree to
        initiate corrective actions to address the problem. The FAR establishes
        contract administration as an inherently governmental function and TSA’s
        support services contractors performed contract administration in 3 of the
        13 contracts we reviewed, representing 40 % of the total $265 million
        awarded for contracts in FY 2009. We believe that until TSA enhances its
        management oversight of support service contracts, it will continue to risk
        transferring government responsibility to contractors by relying on
        contractors to perform contract administration.
.




    Transportation Security Administration’s Acquisition of Support Services Contracts 


                                         Page 12 

Appendix A
Purpose, Scope, and Methodology

                      We performed an audit of TSA’s acquisition of support services
                      contracts. The objective of our audit was to determine whether
                      TSA provides adequate management and oversight in the
                      acquisition of support services for transportation security
                      programs.

                      We performed the audit at TSA Headquarters in Arlington,
                      Virginia. Our review included analysis of contract files, COTR
                      files, COTR certification and training files, and invoices, as well as
                      interviews with TSA acquisition staff.

                      We focused on contracting risks identified in prior Government
                      Accountability Office reports, congressional hearings, and TSA’s
                      procedures to mitigate those risks. We reviewed pertinent sections
                      of Office of management and Budget Circulars, the FAR, the
                      Acquisition Management System, the Department of Homeland
                      Security Acquisition Manual and regulations, and TSA internal
                      acquisition policy and guidance. We interviewed various officials
                      in the Office of Security Technology and Office of the Chief
                      Procurement Officer, including contract officers and COTRs
                      responsible for administering contracts. We reviewed and tested
                      internal controls pertinent to our overall objective.

                      We developed an understanding of internal controls relevant to our
                      audit objective. To accomplish this, we focused on contracting
                      risks identified in prior Government Accountability Office reports,
                      congressional hearings, and TSA’s procedures to mitigate those
                      risks. We reviewed pertinent sections of Office of Management
                      and Budget Circulars, the FAR, the Acquisition Management
                      System, the Department of Homeland Security Acquisition Manual
                      and regulations, and TSA internal acquisition policy and guidance.
                      We interviewed various officials in the Office of Security
                      Technology and Office of the Chief Procurement Officer,
                      including contract officers and COTRs responsible for
                      administering contracts. We used this information to plan the audit
                      and determine the nature, timing, and extent of tests to perform.
                      We reviewed and tested internal controls pertinent to our overall
                      objective.

                      We reviewed 13 TSA support services contracts in the Office of
                      Security Technology. We identified all support services contracts
                      in force for FY 2009 and reviewed all contracts with a dollar value
                      above $10 million. For all contracts reviewed, the corresponding


         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                              Page 13 

Appendix A
Purpose, Scope, and Methodology

                      contract files, COTR administrative files, COTR certification and
                      training files, and contract invoices for August 2009 were reviewed
                      against Office of Management and Budget requirements, the FAR,
                      the Acquisition Management System, the Department of Homeland
                      Security Acquisition Manual, and TSA internal acquisition
                      requirements.

                      We used FAR criteria for this audit because TSA is now required
                      to follow all FAR requirements. In 2008, the Office of
                      Management and Budget initiated a change to the FAR, which
                      ended TSA’s exemption from the FAR, effective June 23, 2008.
                      Although we reviewed contracts that were awarded prior to the
                      FAR requirements, regulatory acquisition criteria in the
                      Acquisition Management system used by TSA until the exception
                      ended are consistent with those in the FAR, except for the
                      solicitation process, which we did not include in this audit.

                      We conducted this performance audit between June and October
                      2009 according to generally accepted government auditing
                      standards. Those standards require that we plan and perform the
                      audit to obtain sufficient and appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on our
                      audit objective. The evidence obtained provides a reasonable basis
                      for our findings and conclusions based on our audit objective.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                              Page 14 

Appendix B
Management Comments to the Draft Report



                                                                                u.s. Deplrtmml of HomeJIDd Sec:uity
                                                                                601 South 12th Sln:cl
                                 1lAR33l11                                      Arlington. VA 20598

                                                                                Transportation
                                                                                Security
                                                                                !\<llnninistration
         MEMORANDUM FOR:               Richard L. Skinner
                                       Assistant Inspector General for Audits
                                       Department of Homeland Security

         FROM:                         Gale D. Rossidcs   h ~A 0 ~
                                       ActingAdmini~
         SUBJECT:                      Dra{i Reporr: TSA 's Acquisition a/Support Scrl'iccs COI1(raCls -
                                       For Official Usc OIl~V



         This memorandum constitutes the Transportation Security Administration's (TSA) fannal
         Agency response to the Department of Homeland Security (DHS). ortiee of Inspector General
         (DIG) drafl report. TSA 's Acquisition o.lSupporf Scn'ices COlllracls - FOUO dated December
         IS. 2009 (Dratl Report). TSA recognizes the importance ofcftective management and oversight
         (If support services contracts. and we appreciate the opportunity to review and provide comments
         to the Draft Report.

         Background

         In 2009, the DHS Ot1ice of Inspector General (OIG) commenced an audit (Equipment Audit) of
         the TSA Logistics Center (TLC). The purpose of the Equipment Audit was to review TSA's
         management of Transportation Security Equipment (TSE) located at the TLC. The Equipment
         Audit identified potential weaknesses in 1'SA's acquisition process of support services and
         resulted in an additional investigation. OIG reviewed the 13 highest-value support servic(,,'S
         contracts within the Oflice of Security Technology (OS1'). The contracts reviewed under the
         scope of the subject audit provide a broad range of support to OST in fulfilling its mission.

         The Draft Report states that TSA did not provide adequate management and oversight of these
         contraClS. Specifically, the Draft Report concluded that:

                 1) contractors were performing inherently governmental functions or roles that closely
                    support the perfonnanee of inherently governmental functions;

                 2) acquisition staff did not follow acquisition guidance;

                 3) contracts contained vague statements of work; and

                4) TSA did not have an adequate number of properly trained core acquisition staff
                   dedicated to pcrfoml contract administration and oversee support services
                   contractors' performance.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                     Page 15 

Appendix B
Management Comments to the Draft Report



                                                                                                            2



         As a result, the dran report concluded that TSA did not have reasonable assurances that
         contractors were pertonning as required, that it contracted for the services nceded. that it
         received the services it paid for, or that taxpayers received the best value lor their tax dollars.
         As OIG notes in its drall report, TSA has developed and implemented changes that will improve
         the administration and oversight of its support services contracts agency-wide.

         Discussion

         TSA appreciates the work ofOIG during the course of the audit and \vill use the intc'llmation to
         assist our ongoing etTorts to improve the oversight of support services acquisitions. With regard
         to the Draft Report. TSA disagrees with some of the conclusions and language of the Draft
         Report and respcctfully provides the follOWing comments.

         Contractors Are Performing Inherently Governmental Functions.

         OIG a'iSerts that OST contractors "performed inherently governmental functions or roles that
         directly support the perfonnance of inherently governmental functions" in contract
         administration. With regard to review of invoices, TSA maintains that obtaining contractor
         support services for the review of invoices to assess whether charges are reasonable, correctly
         charged and allowable is not inherently governmental rer sc, as providing an assessment docs
         not constitute making a "determination" as identitied in the FAR. (7.503(c)(12)(vii)). TSA
         believes that proper administration and oversight by Contracting Officer's Technical
         Representatives (COTRs) must be provided to prevent a contractor's assessmcnt, and
         rccommcndations from becoming an actual determinatioll. In receiving contractor support tor
         invoice reviews, COTRs must ensure that they have an independcnt basis for detennining
         whether charges are reasonable, correctly charged, and allowable, and they should not rely solely
         on contractors recommcndations to make this determination.

         The Dran Report inciudl.'S the scction "Actions Takcn by TSA," which describes the efforts by
         TSA to improve contractor oversight, induding the creation of internal policy on organizational
         conflicts of interest (OCI) and procurement integrity for contracting officers to prevent
         contractors from overseeing their own contracts. Thc TSA Office of Acquisition (OA) plans to
         develop OCI training for programs agcncy·wide. In addition, OA has bcgun to develop
         enhanccd training that will further develop COTR skills in contract administration, management,
         and oversight.

         Contracting Officers Are Not Following TSA Acquisition Guidance.

        Although DIG did not provide specific inlonnation about either the specitic contract tilcs or the
        respective documents that Wl.'fe missing, OA will review all 13 contract files to ensure that any
        missing documentation is included. OA conducts quarterly compliance reviews of official
        contract files. onc aspect of which is to ascertain whether intornlation is complete and updated.
        As noted in the Dratl Report. OA will continue to work with OST COTRs to identify
        deficiencies and provide assistance and guidance on proper assembly COTR documentation.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                      Page 16 

Appendix B
Management Comments to the Draft Report



                                                                                                         3


        Additionally, CST has implemented an electronic CQTR notebook on iShare (e-COTR file).
        which will help ensure consistent and complete content of the COTR files. Initial trainingon usc
        of the c-COTR tile has been provided \0 all CST COTRs. and OST will work with OA to
        integrate as appropriate, instruction on c-COTR file into the fannal TSA COTR training
        program.

        A benefit of the c-COTR tile is that is facilitates easier third~party audit ability. CST will
        develop an CST-internal surveillance program, to supplement the OA audit program. This will
        include a peer review program to reinforce OA audits.

        Contracts Contain Vague Statements of Work.

        TSA agrees that Statements ofWark (SOW) must clearly define requirements; however the type
        of contract may impact the degree of specificity required. For example, with Indefinite Dclivery-
        Indefinite Quantity (IDIQ) contracts, the requisite quantity and frequency of acquired
        items/services are often not known at the time of contract award. which necessitates the need for
        an IDIQ contract.

        The Draft Report asserts that a great number of contract modilieations were executed to clarity
        the work to be pcrfomled, which demonstrates that the contract itself contained vague SOWs.
        Execution of contract moditications is not necessarily indicative of a vaguely defined scope of
        work. Contract modifications can be issued tor many reasons, including administrative changes,
        increasing or dc-obligating funding, or exercising contract options.

        TSA Does Not Have a Sufficient Number of Trained COTR Staff

        The Draft Report highlights the significant role COTRs serve and the importance of assigning
        dedicated, technically proficient COTRs to monitor and administer contacts. The OIG asset:"led
        that TSA does not have adequate "core acquisition staff to serve as COTRs for support services
        contracts:' TSA agrees lhat dedicated professional COTRs, aligned within the technical
        organization that owns the requirement and working closely with acquisition staff will provide
        adequate contract management.

        OA has initiated efforts for enhancing its COTR program. OA currently provides outreach
        support to COTRs and conducts quarterly COTR Forums, which serve lo keep the rSA COrR
        community infomled of issues of interest. as wcll as provide an opportunity to share ideas and
        best practices. lOA plans to offer enhanced COTR training ~hat will develop skills in contract
        administration, management, and oversight. This training will include courses in Contract
        Administration and Corrective Action. As noted in the Dmtl Report. TSA has developed a new
        database that will provide functionality to providc instant access and reporting on COTR
        assignments. certifications. and skills infonnation. Additionally, COTR nominations, training,
        and certifications for OST COTRs have been updated and validated to ensure compliance with
        TSA requirements.

        Additionally, as part of the annual perfonnancc plan agreement between each COTR and hislher
        respective manager within OS1', the manager and COTR will reinforce the COTR training




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                    Page 17 

Appendix B
Management Comments to the Draft Report




                                                                                                            4


         requirements as part of the COTR's Individual Development Plan (lDP). Periodic pcrfonnancc
         review discussions held throughout the year will provide the opportunity to review compliance
         with COTR training requirements. to supplement the periodic OA review for each COTR. OST
         and OA will regularly discuss status of certification of COTRs.

         Finally, OST has hired fOUf additional personnel to work with the OST Acquisition Branch.
         One of the goals of this group is to provide centralized oversight support for OST cross-cutting
         contracts. as well as work with OA to ensure COTR tools are properly utilized.

         Conclusion

         TSA appreciates the work perfonncd by OIG and the contribution of the audit results 10 further
         assist TSA in strengthening the management and oversight of contracts. In addition to the
         specific actions taken reflected in the report, TSA is undertaking additional steps 10 further
         address these issues. TSA 's responses to the specific recommendations. as well as technical
         comments, to the Draft Report are attached.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                     Page 18 

Appendix B
Management Comments to the Draft Report




                                United States Department of Uomeland Security
                                    Transportation Security Administration

                                    Response to Draft Recommendations
                               TSA's Acquisition of Support Services Contracts

         Recommendation #1: Include a contract review of inherently governmental functions as
         part of contract administration.

         TSA Concurs: TSA recognizes the importance of maintaining control of inherently
         governmental functions. As reflected in the Draft Report, the TSA Head of Contracting Activity
         (I-leA) reviews professional services contracts greater than $1 million annually to ensure that
         any proposed contract award or option docs not include inherently or nearly inherently
         governmental requirements or personal services, or impact core functions that must be perfonncd
         by Federal employees. In addition, forthcoming policy will require an analysis to dcmonstrate
         how contracted services arc not inherently governmenta1.

         Recommendation #2: Establish evaluation factors and a review process for requirements
         identified in the statements of work.

         TSA Concurs: OA currently has a policy of solicitation reviews to ensure that all solicitations
         arc reviewed at least one level above the Contracting Officer. This review includes the SOW to
         ensure that requirements are clearly defined. Additionally, OST plans to implement an OST-
         wide procurement front-end process that includes the review and approval of procurement
         documentation, including SOWs. The purpose is to develop a process flow on the OST iShare
         site to ensure consistency and completeness of procurement packages among all OST programs.
         The Electronic Baggage Screening Program plans to develop and pilot the initial workflow
         within the next six months. Once refin<.:d, the workflow process will be implemented OST-wide.
         This will add another comprehensive review at the Program Manager level prior to the
         submission of requirements to OA.

         Recommendation #3: Assign dedicated, trained, and certified COTRs to manage and
         oversee contract administration.

         TSA Concurs: As described above, OA has initiated cllorts for enhancing the COTR program.
         including training. TSA has developed a new database that will provide functionality 10 access
         COTR assignments. certifications, and skills infonnation. TSA also provides outreach to
         COTRs and conducts quarterly COTR Forums. which serve to keep the COTR community
         infonned of issues of interest, as well as an opportunity to share ideas and best practices. 1n
         addition. OA plans to offer enhanced COTR training that will develop skills in contract
         administration, management, and oversight. This training will include courses in Contract
         Administration and Corrective Action. The OST Acquisition Branch has implemented an e-
         COTR file. which will include access to all requisite documentation and will facilitate the
         management of contracts. communication with stakeholders. and records management.
         Additional1y, within the past year, OST has hired four ,additional personnel to work with the OST
         Acquisition Branch. One of the goals of this group is to provide centralized oversight support




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                    Page 19 

Appendix B
Management Comments to the Draft Report




         for OST cross~cutting contracts, as well as work with TSA OA to ensure COTR tools are
         properly utilized. OST will add a link to the e-COTR files for the COTRs to have access to the
         OA COTR support iShare site. This OA site provides up-to-date information to COTRs on
         required training, which will assist in ensuring that the lOPs for each CaTR remain adequate and
         current.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                   Page 20 

Appendix B
Management Comments to the Draft Report




                                United States Department of Homeland Security
                                    Transportation Security Administration

                                     Technical Comments to Draft Report
                                TSA's Acquisition of Support Services Contracts


         Pursuant to previous conversations between OIG staff and TSA staft~ TSA also offers the
         following technical comments to the Dratl Report as part of this response:

                 In the Executive Summary section, OIG notes that TSA "did not provide adequate
                 management and oversight of acquisitions for support services for transportation security
                 programs." This statement should be clarified to reflect that only the OST portfolio of
                 programs related to transportation security technology were reviewed and not all
                 contracts related to the greater TSA mission of transportation security, as is reflected in
                 the within the "Results of Audit" section of the report.

             ~   The "Background section" reflects that the contracts reviewed had a total value of$609
                 million. It should be clarified that this figure represents the total value over multiple
                 contract years.

            ..   The title of the "Contracting Officers Are Not Following TSA Acquisition Guidance"
                 section should be modi tied to reflect that "Certain TSA staff are not following acquisition
                 guidance," since this section also references COTRs. Further, in this section, the
                 statement that documentation was missing for all contracts could be mistakenly
                 interpreted to mean that all required documentation was missing from every tile. TSA
                 believes that the intention here was to indicate that the contract files reviewed were
                 missing some of the documentation listed, similar to the reference for COTR files. It
                 would be bcnefieialto include the number of contracts that were missing the respective
                 documentation, as is reflected tor the COTR files.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                     Page 21 

Appendix C
Inherently Governmental and Approaching Inherently Governmental Functions

             FAR section 7.503 provides examples of inherently governmental
             functions (table C.1) and services or actions that are not inherently
             governmental, but may approach being inherently governmental functions
             based on the nature of the function, the manner in which the contractor
             performs the contract, or the manner in which the government administers
             contractor performance (table C.2).

             Table C.1: Examples of Inherently Governmental Functions
               1    Directly conduct criminal investigations. 

               2    Control prosecutions and perform adjudicatory functions other than arbitration. 

               3    Command military forces.
               4    Conduct foreign relations and determine foreign policy.
               5    Determine agency policy, including regulations.
               6    Determine federal program priorities for budget requests.
               7    Direct and control federal employees.
               8    Direct and control intelligence and counterintelligence operations.
               9    Select individuals for federal government employment.
               10   Approve position descriptions and performance standards for federal employees.
               11   Determine the disposal of government property.
               12   In federal procurement activities with respect to prime contracts, determine the supplies or
                    services acquired by the government; participate as a voting member on any source
                    selection boards; approve contractual documents, including documents defining
                    requirements, incentive plans, and evaluation criteria; award contracts; administer
                    contracts; terminate contracts; determine whether contract costs are reasonable, allocable,
                    and allowable; and participate as a voting member on performance evaluation boards.

               13   Approve agency responses to Freedom of Information Act requests.
               14   Conduct administrative hearings to determine eligibility for security clearances, or that
                    affect personal reputation or eligibility to participate in government programs.

               15   Approve federal licensing actions and inspections.
               16   Determine budget policy, guidance, and strategy.
               17   Collect, control, and disburse public funds, unless authorized by statute. Does not include
                    the collection of public charges to mess halls, national parks, and similar entities; and
                    routine voucher and invoice examination.
               18   Control treasury accounts.
               19   Administer public trusts.
               20   Draft congressional testimony, responses to congressional correspondence, or agency
                    responses to audit reports.




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                Page 22 

Appendix C 

Inherently Governmental and Approaching Inherently Governmental Functions
 



      Table C.2: Examples of Roles That May Directly Support the Performance of Inherently
      Governmental Functions
       1      Involve or relate to budget preparation. 

       2      Involve or relate to reorganization and planning activities. 

       3      Involve or relate to analyses, feasibility studies, and strategy options to be used in developing
              policy.
       4      Involve or relate to developing regulations.
       5      Involve or relate to evaluating another contractor’s performance.
       6      Support acquisition planning.
       7      Assist in contract management.
       8      Provide technical evaluation of contract proposals.
       9      Assist in developing statements of work.
       10     Support the preparation of responses to Freedom of Information Act requests.
       11     Work in situations that may permit access to confidential business information.
       12     Provide information regarding agency policies or regulations.
       13 	  Participate in situations where contractors may be assumed to be agency employees or
            representatives.
       14 	 Participate as technical advisors tosource selection boards or as members of a source evaluation
            board.
       15 Serve as arbitrators or provide alternative methods of dispute resolution.
       16     Construct buildings intended to be secure.
       17     Provide inspection services.
       18     Provide legal advice and interpret regulations and statutes for government officials.
       19     Provide non-law enforcement security activities that do not directly involve criminal investigations.




            Transportation Security Administration’s Acquisition of Support Services Contracts 


                                                     Page 23 

Appendix D
Major Contributors to This Report


                      Linda Howard, Director
                      Gene Wendt, Audit Manager
                      Stephanie Christian, Program Analyst
                      Enrique Leal, Program Analyst
                      Gary Crownover, Program Analyst
                      Michael Lugo, Auditor
                      Lisa Vonder Haar, Desk Officer
                      Andrew Smith, Desk Officer




         Transportation Security Administration’s Acquisition of Support Services Contracts 


                                              Page 24 

Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs

                       Transportation Security Administration

                       Assistant Secretary Transportation Security Administration
                       TSA Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




          Transportation Security Administration’s Acquisition of Support Services Contracts 


                                               Page 25 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
